BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in TNT Crane
& Rigging, Inc. v. Eugene Scalia, Secretary of Labor;
Occupational Safety and Health Review Commission,
was sent via Next Day Service to the U.S. Supreme
Court, and via e-mail service to the following parties
listed below, this 4th day of January, 2021:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Brian Alan Broecker
Charles Franklin James
Kate S. O'Scannlain
U.S. Department of Labor
Office of the Solicitor
200 Constitution Avenue, N.W.
Frances Perkins Building
Washington, DC 20210
(202) 693-5484
broecker. brian@dol.gov
james.charles@dol.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Connie M. Ackerman
U.S. Department of Labor
Office of the Solicitor
525 S. Griffin Street
Dallas, TX 75202
John X. Cerveny
Occupational Safety & Health Review Commission
1120 20th Street, N.W.
1 Lafayette Center
Washington, DC 20036

Counsel for Respondents
Todd B. Scherwin
Counsel of Record
Fisher & Phillips LLP
444 S. Flower Street
Suite 1500
Los Angeles, CA 90071
(213) 330-4450
tscherwin@fisherphillips.com
Pamela D. Williams
Fisher & Phillips LLP
910 Louisiana Street
Suite 4000
Houston, TX 77002
Paul D. Clement
George W. Hicks, Jr.
Michael D. Lieberman
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004

Travis W. Vance
Fisher & Phillips LLP
227 W. Trade Street
Suite 2020
Charlotte, NC 28202
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 4, 2021.

Donna J. Wolf
Becker Gallagher Legal Pubshing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

V

